      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General

                                                                        Washington, D.C. 20201




December 1, 2009

TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Joseph E. Vengrin/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicaid Supplemental Rate Payments to UMass Memorial Health
              Care, Inc., for Fiscal Years 2004 and 2005 (A-01-07-00013)


Attached is an advance copy of our final report on Medicaid supplemental rate payments made to
UMass Memorial Health Care, Inc. (UMMHC), for Federal fiscal years (FY) 2004 and 2005.
We will issue this report to the Massachusetts Executive Office of Health and Human Services
(the State agency) within 5 business days.

In addition to standard Medicaid payments, the State agency provides Medicaid supplemental
rate payments (supplemental payments) to UMMHC. For the period October 1, 1999, through
January 20, 2001, UMMHC received supplemental payments for its unreimbursed costs.
Effective January 20, 2001, the State plan was amended to change the methodology for
calculating supplemental payments from a cost basis to a charge basis. Under this methodology,
UMMHC is reimbursed in full for its Medicaid charges.

During the 2-year period that ended September 30, 2005, UMMHC received supplemental
payments totaling $349,727,197: $125,000,000 in FY 2004 and $224,727,197 in FY 2005.
These supplemental payments were in addition to the $141 million that UMMHC received in
Medicaid fee-for-service payments during this period. During our audit, the State agency
reduced its claim for supplemental payments by $12,516,047. As a result of this adjustment, the
State agency claimed a total of $337,211,150 in supplemental payments during FYs 2004 and
2005.

Our objective was to determine whether the State agency’s claims for Federal reimbursement of
supplemental payments to UMMHC during FYs 2004 and 2005 were in accordance with certain
Federal and State plan requirements.

Of the $337,211,150 that the State agency claimed in supplemental payments to UMMHC during
FYs 2004 and 2005, $320,148,713 was claimed in accordance with Federal and State plan
requirements. However, the State agency’s claim included $12.7 million for hospital and
Page 2 – Charlene Frizzera


physician services provided in FYs 2000 through 2003 that were not eligible for supplemental
payments. In addition, the State agency understated its claim for unreimbursed charges for
inpatient and outpatient services in FY 2005 by $1.2 million. We have adjusted our total finding
from $12.7 million to $11.5 million to reflect the $1.2 million understatement.

We also identified an additional $5.6 million ($2.8 million Federal share) included in the
supplemental payment calculations for FYs 2000 and 2001 that represented payments to the
University of Massachusetts Medical School (Medical School) on which we were unable to
express an opinion.

These excessive supplemental Medicaid payments occurred because UMMHC did not follow
procedures set forth in the State plan to calculate these payments and the State agency believed
that the procedures that UMMHC used were in accordance with the State plan.

We recommend that the State agency:

      make a financial adjustment of $11.5 million ($5.75 million Federal share),

      work with the Centers for Medicare & Medicaid Services (CMS) to determine the
       appropriateness of $5.6 million ($2.8 million Federal share) in supplemental payments
       representing UMMHC payments to the Medical School, and

      follow State plan requirements when submitting claims for supplemental payments.

In written comments on our draft report, the State agency respectfully disagreed with
$8.5 million of our $11.5 million finding and stated that the supplemental payments were in
accordance with the State plan in effect at the time. The State agency agreed to work with CMS
in resolving our finding related to payments to the Medical School.

We based our findings on the applicable Medicaid requirements in effect during our audit period.
Therefore, we maintain that our findings and recommendations, as originally stated, are valid.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov,
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2689 or through email at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-07-00013 in all correspondence.


Attachment
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                   OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684
December 7, 2009

Report Number: A-01-07-00013

JudyAnn Bigby, M.D.
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11th Floor
Boston, Massachusetts 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Medicaid Supplemental Rate Payments to
UMass Memorial Health Care, Inc., for Fiscal Years 2004 and 2005.” We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Curtis Roy, Audit Manager, at (617) 565-9281 or through email at Curtis.Roy@oig.hhs.gov. Please
refer to report number A-01-07-00013 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – JudyAnn Bigby, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




       REVIEW OF MEDICAID
 SUPPLEMENTAL RATE PAYMENTS TO
UMASS MEMORIAL HEALTH CARE, INC.,
  FOR FISCAL YEARS 2004 AND 2005




                         Daniel R. Levinson
                          Inspector General

                           December 2009
                           A-01-07-00013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

In Massachusetts, the Executive Office of Health and Human Services (the State agency)
administers the Medicaid Program. Services covered under Medicaid and eligible for Federal
reimbursement are set forth in the Massachusetts Medicaid State plan. Subsequent changes to
the State plan are negotiated with the Centers for Medicare & Medicaid Services (CMS) and
incorporated through State plan amendments.

UMass Memorial Health Care, Inc. (UMMHC), is the controlling company for one large
teaching hospital, four small community hospitals, and a physician practice group (UMass
Memorial Medical Group). Its teaching hospital, UMass Memorial Medical Center, is affiliated
with the University of Massachusetts Medical School (the Medical School) and shares facilities
with it. However, the Medical School is a legally separate entity.

The State agency reimburses acute-care hospitals for an array of inpatient and outpatient
services. In addition, it provides Medicaid supplemental rate payments (supplemental payments)
to selected hospitals. For the period October 1, 1999, through January 20, 2001, UMMHC
received supplemental payments for its unreimbursed costs. Effective January 20, 2001, the
State plan was amended to change the methodology for calculating supplemental payments from
a cost basis to a charge basis. Under this methodology, UMMHC is reimbursed in full for its
Medicaid charges.

During the 2-year period that ended September 30, 2005, UMMHC received supplemental
payments totaling $349,727,197: $125,000,000 in Federal fiscal year (FY) 2004 and
$224,727,197 in FY 2005. These supplemental payments were in addition to the $141 million
that UMMHC received in Medicaid fee-for-service payments during this period. During our
audit, the State agency reduced its claim for supplemental payments by $12,516,047. As a result
of this adjustment, the State agency claimed a total of $337,211,150 in supplemental payments
during FYs 2004 and 2005.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for Federal reimbursement of
supplemental payments to UMMHC during FYs 2004 and 2005 were in accordance with certain
Federal and State plan requirements.

SUMMARY OF FINDINGS

Of the $337,211,150 that the State agency claimed in supplemental payments to UMMHC during
FYs 2004 and 2005, $320,148,713 was claimed in accordance with Federal and State plan
requirements. However, the State agency’s claim included $12.7 million for hospital and
physician services provided in FYs 2000 through 2003 that were not eligible for supplemental
payments. In addition, the State agency understated its claim for unreimbursed charges for




                                               i
inpatient and outpatient services in FY 2005 by $1.2 million. We have adjusted our total finding
from $12.7 million to $11.5 million to reflect the $1.2 million understatement.

We also identified an additional $5.6 million ($2.8 million Federal share) included in the
supplemental payment calculations for FYs 2000 and 2001 that represented payments to the
Medical School on which we were unable to express an opinion.

These excessive supplemental Medicaid payments occurred because UMMHC did not follow
procedures set forth in the State plan to calculate these payments and the State agency believed
that the procedures that UMMHC used were in accordance with the State plan.

RECOMMENDATIONS

We recommend that the State agency:

      make a financial adjustment of $11.5 million ($5.75 million Federal share),

      work with CMS to determine the appropriateness of $5.6 million ($2.8 million Federal
       share) in supplemental payments representing UMMHC payments to the Medical School,
       and

      follow State plan requirements when submitting claims for supplemental payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency respectfully disagreed with
$8.5 million of our $11.5 million finding. The State agency believed that these supplemental
payments were appropriate under a reasonable reading of the supplemental payment
methodologies of the State plan in effect during 2000 and 2001, parts of which it attached with
its comments. In addressing our finding related to payments to the Medical School, the State
agency said that it would be happy to work with CMS on this issue. However, it maintained that
the inclusion of medical education costs for FYs 2000 and 2001 in the supplemental payment
calculations was in accordance with the State plan in effect at the time.

The State agency’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We based our findings on the applicable Medicaid requirements in effect during our audit period.
The State Plan amendments that the State agency attached with its comments were an intrinsic
part of our evaluation and contain no material that we did not consider during our review.
Therefore, we maintain that our findings and recommendations, as originally stated, are valid.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.........................................................................................................................1

          BACKGROUND ................................................................................................................1
              The Medicaid Program ...........................................................................................1
              UMass Memorial Health Care, Inc. ........................................................................1
              Medicaid Supplemental Rate Payments..................................................................1
              Upper Payment Limits ............................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ..............................................................2
               Objective .................................................................................................................2
               Scope.......................................................................................................................2
               Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ...............................................................................3

          FEDERAL AND STATE PLAN REQUIREMENTS ........................................................4
               Federal Requirements .............................................................................................4
               The State Plan .........................................................................................................4

          RETROACTIVE CLAIMS FOR FISCAL YEARS 2000 THROUGH 2003 ....................5
               Retroactive Claims for Supplemental Payments Based on Hospital Services
                Provided in Fiscal Years 2000 and 2001 .............................................................6
               Retroactive Claims for Supplemental Payments Based on Physician Services
                Performed Outside the Hospital Setting in Fiscal Years 2000 Through 2003.....6

          PAYMENTS TO UNIVERSITY OF MASSACHUSETTS MEDICAL SCHOOL ..........7

          CONCLUSION...................................................................................................................7

          RECOMMENDATIONS....................................................................................................7

          STATE AGENCY COMMENTS.......................................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE .........................................................8

APPENDIXES

          A – SUPPLEMENTAL PAYMENTS MADE TO UMASS MEMORIAL
               HEALTH CARE, INC., DURING FISCAL YEARS 2004 AND 2005




                                                                    iii
B – SUPPLEMENTAL PAYMENTS MADE TO UMASS MEMORIAL HEALTH
     CARE, INC., DURING FISCAL YEARS 2004 AND 2005 FOR FISCAL YEARS
     2004 AND 2005

C – RETROACTIVE SUPPLEMENTAL PAYMENTS MADE TO UMASS
     MEMORIAL HEALTH CARE, INC., DURING FISCAL YEARS 2004 AND 2005
     FOR FISCAL YEARS 2000 THROUGH 2003

D – STATE AGENCY COMMENTS




                              iv
                                       INTRODUCTION

BACKGROUND

The Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In Massachusetts, the Executive Office of Health and Human Services (the State agency)
administers the Medicaid program. Services covered under Medicaid and eligible for
Federal reimbursement are set forth in the Massachusetts Medicaid State plan.
Subsequent changes to the State plan are negotiated with CMS and incorporated through
State plan amendments (SPA).

UMass Memorial Health Care, Inc.

UMass Memorial Health Care, Inc. (UMMHC), is a Massachusetts not-for-profit corporation
formed in 1998 through a series of mergers of several private and State entities. UMMHC is the
controlling company for one large teaching hospital, four small community hospitals, and a
physician practice group (UMass Memorial Medical Group). Its teaching hospital, UMass
Memorial Medical Center (the Medical Center), is affiliated with the University of
Massachusetts Medical School (the Medical School) and shares facilities with it. However, the
Medical School is legally separate from UMMHC.

Medicaid Supplemental Rate Payments

The State agency reimburses acute-care hospitals for an array of inpatient and outpatient
services. In addition, it provides Medicaid supplemental rate payments (supplemental payments)
to selected hospitals. The State plan currently designates certain hospitals that are eligible for
supplemental payments as “Essential MassHealth Hospitals.” UMMHC is one of two entities in
Massachusetts whose hospitals have this designation.

For the period October 1, 1999, through January 20, 2001, UMMHC received supplemental
payments for its unreimbursed costs. These costs represented the difference between the
standard Medicaid payments that UMMHC received and its actual Medicaid costs, as calculated
using specific cost data on UMMHC’s Division of Health Care Finance and Policy-403 Hospital
Statement of Costs, Revenues and Statistics (DHCFP-403 cost reports).

Effective January 20, 2001, the State plan was amended to change the methodology for
calculating supplemental payments from a cost basis to a charge basis. Under this methodology,



                                                1
UMMHC began receiving supplemental payments that represented the difference between
UMMHC’s total standard Medicaid payments and total Medicaid charges, as calculated using
data from its financial and cost reports.

During the 2-year period that ended September 30, 2005, UMMHC received supplemental
payments totaling $349,727,197: $125,000,000 in Federal fiscal year (FY) 2004 and
$224,727,197 in FY 2005 (Appendix A). These supplemental payments were in addition to the
$141 million that UMMHC received in Medicaid fee-for-service payments during this period.
During our audit, the State agency reduced its claim for supplemental payments by $12,516,047
(Appendix B). After this adjustment, the State agency’s claim totaled $337,211,150 in
supplemental payments made during FYs 2004 and 2005.

Upper Payment Limits

The upper payment limit (UPL) is an estimate of the amount that Medicare would have paid for
the Medicaid services. Medicaid allows State Medicaid agencies to pay different amounts to
providers in the same category as long as the payments, in aggregate, do not exceed that
category’s UPL. Medicaid regulation (42 CFR § 447.272) specifies that States must calculate a
separate UPL for each of three categories: private facilities; State-owned facilities; and non-
State, government-owned facilities. The State agency categorizes UMMHC’s five hospitals as
private facilities. According to the State’s most recent UPL calculations available, the private
pool had sufficient funds to allow for the amount of the supplemental payments that UMMHC
received. We did not review these UPL calculations as part of this audit.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for Federal reimbursement of
supplemental payments to UMMHC during FYs 2004 and 2005 were in accordance with certain
Federal and State plan requirements.

Scope

Our audit covered the $349,727,197 that the State agency claimed for supplemental payments
made to UMMHC during FYs 2004 and 2005. During our audit, the State agency made an
adjustment that reduced the audited amount to $337,211,150. We limited our review of internal
controls to obtaining an overall understanding of the policies and procedures for calculating
supplemental payments. We did not review the State agency’s process for determining Medicaid
eligibility or the medical necessity of the services provided.

We performed our fieldwork at UMMHC in Worcester, Massachusetts, and at the State agency
in Boston, Massachusetts, during the period July 2005 to May 2009.




                                                2
Methodology

To accomplish our objective, we:
      reviewed the State plan and Federal regulations as they pertain to supplemental
       payments;

      interviewed personnel from the State agency, UMMHC, and the Medical School;

      consulted with CMS regional staff who monitor the supplemental payments and the State
       plan;

      determined the amount of supplemental payments that UMMHC received by examining
       the State agency’s Form CMS-64, “Quarterly Statement of Expenditures for the Medical
       Assistance Program”;

      analyzed financial and cost report data that UMMHC and the State agency used to
       calculate supplemental payments;

      reviewed UMMHC’s detailed claim files and data from the Medicaid Management
       Information System;

      analyzed the Medical Group’s detailed claim files related to the supplemental payments;

      recalculated eligible supplemental payments using the State plan methodologies; and

      reviewed invoices and related documentation pertaining to UMMHC’s payments to the
       Medical School.

We conducted our audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the $337,211,150 that the State agency claimed in supplemental payments to UMMHC during
FYs 2004 and 2005, $320,148,713 was claimed in accordance with Federal and State plan
requirements. However, the State agency’s claim included $12.7 million for hospital and
physician services provided in FYs 2000 through 2003 that were not eligible for supplemental
payments. In addition, the State agency understated its claim for unreimbursed charges for
inpatient and outpatient services in FY 2005 by $1.2 million. We have adjusted our total finding
from $12.7 million to $11.5 million to reflect the $1.2 million understatement.




                                               3
We also identified an additional $5.6 million ($2.8 million Federal share) included in the
supplemental payment calculations for FYs 2000 and 2001 that represented payments to the
Medical School on which we were unable to express an opinion.

These excessive supplemental Medicaid payments occurred because UMMHC did not follow
procedures set forth in the State plan to calculate these payments and the State agency believed
that the procedures that UMMHC used were in accordance with the State plan.

FEDERAL AND STATE PLAN REQUIREMENTS

Federal Requirements

Section 1903(a)(1) of the Act provides for Federal matching funds only for those expenditures
made by a State under an approved State plan. Federal regulations (42 CFR § 430.10) require
that the State plan describe “the nature and scope of its Medicaid program.” In addition, the
State plan should contain “all information necessary for CMS to determine whether the plan can
be approved to serve as a basis for Federal financial participation . . . .”

The State Plan

Requirements for Fiscal Years 2001 Through 2005

Effective January 20, 2001, the Massachusetts Medicaid SPA TN 01-004, section IV.C.5 (and
similar subsequent revisions), defines the inpatient reimbursement methodology for
supplemental payments to Essential MassHealth Hospitals as follows:

       Subject to specific legislative authorization and appropriation and compliance
       with federal upper payment limit and other applicable regulations at 42 CFR
       part 447, the [State agency] will make a supplemental payment in addition to the
       standard reimbursement made under the [State agency’s] Acute Hospital Contract,
       to Essential MassHealth Hospitals . . . . The payment amount will be
       (i) determined by the [State agency] using data filed by each qualifying hospital in
       its financial and cost reports, and (ii) a percentage of the difference between the
       qualifying hospital’s total Medicaid charges and total Medicaid payments for such
       charges from any source, which percentage shall in no event exceed 100 percent.

SPA TN 01-005, section IV.B.3, and subsequent revisions, defines the outpatient supplemental
payment methodology in a similar manner.

Requirements for Fiscal Years 2000 and 2001

The Massachusetts Medicaid SPA TN 99-012, section IV.C.4.b, which was in effect before
January 20, 2001, defines the inpatient reimbursement methodology for supplemental payments
to be equal to the hospital’s cost per discharge calculated as follows:

       The data used for this payment will be from the most recent submission of the
       hospital’s or predecessor hospital’s DHCFP-403 report(s). Total hospital-specific


                                                4
           inpatient non-psychiatric charges are multiplied by the hospital’s inpatient
           non-psychiatric cost-to-charge ratio (calculated using DHCFP-403, schedule II,
           column 10, line 100 minus column 10, line 82 for the total cost numerator and
           schedule II, column 11, line 100 minus column 11, line 82 for the total charges
           denominator) to compute that facility’s total inpatient non-psychiatric cost. The
           total inpatient non-psychiatric cost is then multiplied by the ratio of the hospital-
           specific non-psychiatric Medicaid discharges to the total hospital non-psychiatric
           discharges to yield the Medicaid inpatient non-psychiatric cost. The Medicaid
           inpatient non-psychiatric cost is then divided by the number of Medicaid non-
           psychiatric discharges to calculate the Medicaid cost per discharge . . . .

SPA TN 99-013, section IV.B.a, defines the outpatient supplemental Medicaid payment
methodology in a similar manner.

Hospital-Based Physicians

The Massachusetts Medicaid State plan allows for hospitals to be reimbursed for services
provided by hospital-based physicians. The Massachusetts Medicaid SPAs TN 99-012,
section II, and TN 99-013, section II, define a hospital-based physician as any physician,
excluding interns, residents, fellows, and house officers, who contracts with a hospital or
hospital-based entity to provide inpatient or outpatient services to MassHealth members at a site
for which the hospital is otherwise eligible to receive reimbursement. The same sections of these
SPAs also define inpatient services as “medical services provided to a [Medicaid recipient]
admitted to an acute inpatient hospital” and outpatient services as “medical services provided to
a [Medicaid recipient] in a hospital outpatient department . . . .” Accordingly, inpatient and
outpatient hospital physician services may be included in supplemental payment calculations so
long as they meet these definitions.

RETROACTIVE CLAIMS FOR FISCAL YEARS 2000 THROUGH 2003

During FYs 2004 and 2005, the State agency retroactively claimed $52.3 million 1 for previously
unreimbursed supplemental payments for FYs 2000 through 2003. However, we found that the
State agency had already received $12.7 million in excessive supplemental payments for
FYs 2000 through 2003. These excessive payments consisted of:

          $8.5 million for supplemental payments based on hospital services provided in FYs 2000
           and 2001 and

          $4.2 million for supplemental payments based on physician services of the UMass
           Memorial Medical Group provided outside of the hospital setting in FYs 2000 through
           2003.

As a result, the State agency was eligible to claim only $39.6 million in unreimbursed
supplemental payments for these FYs.
1
    The State agency retroactively claimed $13.5 million in FY 2004 and $38.8 million in FY 2005.



                                                           5
Appendix C shows the supplemental payments that we recalculated for FYs 2000 through 2003
and the resulting effects on retroactive supplemental payments that the State agency claimed
during FYs 2004 and 2005.

Retroactive Claims for Supplemental Payments Based on Hospital Services Provided in
Fiscal Years 2000 and 2001

In determining the amount available to be retroactively claimed in FYs 2004 and 2005, UMMHC
did not always use the methodology set forth in the State plan that was in effect when the
services were provided. The State plan in effect before January 20, 2001, required that
calculations of supplemental payments use cost data from specific line items on the DHCFP-403
cost reports. At our request, UMMHC officials recalculated the amount available for
supplemental payments using the method required by the State plan. Our comparison of
UMMHC’s recalculation with UMMHC’s calculation on which the State agency had based its
claim indicated that the original calculation for the period before January 20, 2001, had included
costs that were not part of the formula that the State plan set forth for calculating supplemental
payments. These costs were for items such as free care assessments, provisions for bad debts,
and payments from the UMass Memorial Medical Group to the Medical School that did not
correspond to specified line items on the cost reports.

In contrast, for the period January 20 through September 30, 2001, the State agency did not
claim all of the amounts for which UMMHC was eligible.

We reviewed UMMHC’s recalculations and verified that:

      For the period before January 20, 2001, the State agency overclaimed the amounts
       available for retroactive claims for supplemental payments based on hospital services by
       $17.3 million.

      For the period January 20 through September 30, 2001, the State agency underclaimed
       the amounts available for retroactive claims for supplemental payments by $8.8 million.

As a result, the State agency overstated the total amount available from FYs 2000 through 2001
for retroactive claims during FYs 2004 and 2005 by a total of $8.5 million.

Retroactive Claims for Supplemental Payments Based on Physician Services Performed
Outside the Hospital Setting in Fiscal Years 2000 Through 2003

For FYs 2000 through 2003, UMMHC’s supplemental payment calculations included claims for
physician services from the UMass Memorial Medical Group that were not provided at a site for
which the hospital was otherwise eligible to receive reimbursement, pursuant to the Massachusetts
Medicaid SPAs TN 99-012, section II, and TN 99-013, section II. Instead, these services were
provided in nonhospital settings such as physician’s offices and nursing homes. State agency
officials agreed that these nonhospital-based physician services provided by the UMass Memorial
Medical Group should not have been included in the supplemental payment calculations.




                                                6
In recalculating the amount of supplemental payments based on physician services performed in
FYs 2000 through 2003 that were available for the State agency to retroactively claim in FY 2005,
we allowed for claims for physician services that were performed in accordance with the State
plan. However, we removed claims for physician services performed outside the hospital setting,
thereby reducing the amount of supplemental payments available to be claimed in FY 2005 by
$4.2 million.

PAYMENTS TO UNIVERSITY OF MASSACHUSETTS MEDICAL SCHOOL

In determining UMMHC’s supplemental payments eligible under the State plan before
January 20, 2001, we found that UMMHC had included costs of $4.3 million in FY 2000 and
$1.3 million from October 1, 2000, to January 20, 2001, for payments that the Medical Center
made to the Medical School and reported on its DHCFP-403 cost reports. UMMHC described
these costs as “medical education costs” representing the direct and indirect undergraduate
classroom instruction expenses of the Medical School.

The State plan does not clearly allow Medical School costs to be included in supplemental
payment calculations. The State plan only references payments to the Medical School under the
sections dealing with disproportionate share hospital payments. As a result, we are unable to
express an opinion on the $5.6 million ($2.8 million Federal share) in medical education costs
representing UMMHC payments to the Medical School.

CONCLUSION

The State agency overstated its supplemental payment claims during FYs 2004 and 2005 by
approximately $12.7 million in retroactively claimed costs from FYs 2000 through 2003. The
State agency understated its claim for unreimbursed charges for inpatient and outpatient services
in FY 2005 by $1.2 million. We have adjusted our total finding from $12.7 million to
$11.5 million ($5.75 million Federal share) to reflect the $1.2 million understatement.

These excessive supplemental Medicaid payments occurred because UMMHC did not follow
procedures set forth in the State plan to calculate these payments and the State agency believed
that the procedures that UMMHC used were in accordance with the State plan.

RECOMMENDATIONS

We recommend that the State agency:

      make a financial adjustment of $11.5 million ($5.75 million Federal share),

      work with CMS to determine the appropriateness of $5.6 million ($2.8 million Federal
       share) in supplemental payments representing UMMHC payments to the Medical School,
       and

      follow State plan requirements when submitting claims for supplemental payments.




                                                7
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency respectfully disagreed with
$8.5 million of our $11.5 million finding. The State agency believed that these supplemental
payments were appropriate under a reasonable reading of the supplemental payment
methodologies of the State plan in effect during 2000 and 2001, parts of which it attached with
its comments. In addressing our finding related to payments to the Medical School, the State
agency said that it would be happy to work with CMS on this issue. However, it maintained that
the inclusion of medical education costs for FYs 2000 and 2001 in the supplemental payment
calculations was in accordance with the State plan in effect at the time.

The State agency’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We based our findings on the applicable Medicaid requirements in effect during our audit period.
The SPAs that the State agency attached with its comments were an intrinsic part of our
evaluation and contain no material that we did not consider during our review. Therefore, we
maintain that our findings and recommendations, as originally stated, are valid.
APPENDIXES
             APPENDIX A: SUPPLEMENTAL PAYMENTS MADE TO UMASS MEMORIAL HEALTH CARE, INC.,
                                  DURING FISCAL YEARS 2004 AND 2005 1,2

                                                              For Services      For Services      For Services      For Services       For Services      For Services
                                                              Provided in       Provided in       Provided in       Provided in        Provided in       Provided in
                                                               FY 2000           FY 2001           FY 2002           FY 2003            FY 2004           FY 2005
Fiscal Year (FY) 2004 Payment                                                                                                                                                  Total
     Total Costs or Charges, Actual                           $95,859,359                                                            $199,578,141
     Total Fee for Service Payments, Actual                    62,927,183                                                              87,025,511
     Unreimbursed Costs or Charges Before                      32,932,176                                                             112,552,630
     Supplemental Payments
     Supplemental Payments Made Before FY 2004                 30,262,245
     Unreimbursed Charges (or Costs) Before FY 2004             2,669,931
     Supplemental Payments
     Supplemental Payments Made in FY 2004                     13,526,924                                                              111,473,076                           $125,000,000
    Net Remaining Costs or Charges                            (10,856,993)                                                               1,079,554

FY 2005 Payment                                                FY 2000            FY 2001           FY 2002           FY 2003          FY 2004            FY 2005
    Total Costs or Charges (or Costs), Actual                 $95,859,359        $151,837,376      $189,213,133      $199,344,270    $199,578,141        $267,075,744
    Total Fee for Service Payments, Actual                     62,927,183          69,061,931        68,164,620        67,453,711      87,025,511          93,545,724
    Unreimbursed Cost or Charges (or Costs) Before
    Supplemental Payments                                    32,932,176            82,775,445       121,048,513       131,890,559      112,552,630         173,530,020
    Supplemental Payments Made Before FY 2005                                      53,710,664       120,000,000       125,000,000      111,473,076             -
                                                              43,789,169
    Unreimbursed Costs or Charges (or Costs) Before                                29,064,781         1,048,513          6,890,559       1,079,554         173,530,020
    FY 2005 Supplemental Payments                             (10,856,993)
    Supplemental Payments Made in FY 2005                       10,792,270         17,416,830         2,424,979          8,146,587      13,595,598         172,350,933       $224,727,197
    Net Remaining Costs or Charges                            (21,649,263)         11,647,951        (1,376,466)       (1,256,028)    (12,516,044)           1,179,087

Combined Fiscal Years 2004 and 2005 Supplemental Payments


Supplemental Payments Made in FYs 2004 and 2005               $24,319,194       $17,416,830          $2,424,979        $8,146,587      $125,068,674      $172,350,933       $349,727,197 3




1
 The information in this Appendix was provided by the Massachusetts Executive Office of Health and Human Services (the State agency) and was adjusted for the effects of our audit
findings. The totals do not include the $5,607,721 in Medicaid supplemental rate payments (supplemental payments) on which we express no opinion or the State agency’s
$12,516,047 adjustment made in January 2006.
2
  The supplemental payments made during FYs 2004 and 2005 represent unreimbursed costs and charges that were incurred not only in FYs 2004 and 2005 but also in prior years.
3
  Does not include the State agency’s $12,516,047 adjustment made in January 2006, which reduces the total supplemental payments during FYs 2004 and 2005 to $337,211,150.
           APPENDIX B: SUPPLEMENTAL PAYMENTS MADE TO UMASS MEMORIAL HEALTH CARE, INC.,
                    DURING FISCAL YEARS 2004 AND 2005 FOR FISCAL YEARS 2004 AND 2005

                                                                                                                               Total
                                                                            FY 2004                 FY 2005              FYs 2004 and 2005



      Eligible Supplemental Payments Per Audit
                                                                         $112,552,630            $173,530,020                $286,082,650

      Total Supplemental Payments Claimed                                 125,068,674             172,350,933                 297,419,607


      Total (Overclaimed) or Underclaimed
       Supplemental Payments                                            ($12,516,044) 1            $1,179,087               ($11,336,957)




1
 During our audit, the State agency refunded $12,516,047 to account for these overclaimed supplemental payments. There was a $3 discrepancy between the
amount that the State agency overclaimed and the amount that it refunded.
        APPENDIX C: RETROACTIVE SUPPLEMENTAL PAYMENTS MADE TO UMASS MEMORIAL HEALTH
           CARE, INC., DURING FISCAL YEARS 2004 AND 2005 FOR FISCAL YEARS 2000 THROUGH 2003

                                                                                                                                                 Total
                                                               FY 2000             FY 2001             FY 2002             FY 2003           FYs 2000−2003


Eligible Supplemental Payments per Audit                     $32,932,176         $82,775,445        $121,048,513        $131,890,559          $368,646,693

Amounts Claimed Before FYs 2004 and 2005                      30,262,245           53,710,664         120,000,000        125,000,000           328,972,909

Amounts Remaining for Retroactive
                                                                2,669,931          29,064,781            1,048,513          6,890,559           39,673,784 1
 Payments in FYs 2004 and 2005

Retroactive Payments Claimed
                                                              24,319,194           17,416,830           2,424,979           8,146,587           52,307,590
 in FYs 2004 and 2005

    (Overclaimed) or Underclaimed
      Hospital Costs and Charges                             (21,129,188)         12,640,016               $0                  $0               (8,489,172)
    (Overclaimed) Physician Services                             (520,075)           (992,065)         (1,376,466)         (1,256,028)          (4,144,634)

Total (Overclaimed) or Underclaimed
 Supplemental Payments                                      ($21,649,263)        $11,647,951         ($1,376,466)        ($1,256,028)        ($12,633,806)




1
 On page 5 of the report, we rounded this number down to $39.6 million to account for a discrepancy in total dollar amounts remaining for retroactive payments
in FYs 2004 and 2005 that was caused by rounding.
                              APPENDIX D: STATE AGENCY COMMENTS                                                   Page 1 of 6

                            The Commonwealth oj Massachusetts
                        Executive Office ojHealth and Human S e rvices                             MassHealth
                                       Office oj Medicaid
                                     One Ashburton Place
                                      Boston, MA 02108
 DEVAL L . PATRICK                                                                                  JUDYANN BIGBY. M.D .
    Governor                                                                                             Secret ary
TIMOTHY P. MURRAY                                                                                    THOMAS R. DEHNER
Lieutenan t Gove rnor                                                                                 Medicaid Direc tor




           September 16, 2009

           Michael Armstrong
           Regional Inspector General
           U.S. Department of Health and Hum an Services
           JFK Federal Bu ilding Room 2425
           Boston, MA 02203

           Re: Audit Report No: A-01-07-00013
           Response to Office of the Inspector General's Draft Audit Report of Review of Medicaid
           Supplemental Rate Payments to UMass Memorial Health Care, Inc., for Fiscal Years 2004 and
           2005

           Dear Mr. Armstrong,

           Thank you for the opportunity to review and comment on Draft Audit Report No: A-01 -07-00013
           "Review of Medicaid Supplemental Rate Payments to UMass Memorial Health Care , Inc., for
           Fiscal Years 2004 and 2005 ."

           We wish to thank you and your team for your time and effort, and for Ihe input we have received
           over the course of this engagement. Much has changed in the ten-year period since the first
           services covered under the scope of th is audit were delivered. The methodologies and specific
           State Plan language EOHHS relied on to pay hospitals during the audit period have been
           substantially revised and some State Plan provisions at issue in the Draft Aud it Report are no
           longer in effect. Moreover, EOHHS has adopted additional internal procedures over the last
           several years to monitor program payments . Nevertheless, we wish to comment specifically on
           two issues, which are discussed below.

           Supplemental payments based on hospital services provided in fiscal years 2000 and 2001

           The Draft Audit Report recommends a financial adjustment of $11.5 million relating to
           supplemental payments for hospital services . EOHHS respectfully disagrees with $8.5 million of
           the OIG's finding . We believe that these supplemental payment amounts were appropriate under
           a reasonable reading of supplemental payment methodologies of the State Plan in effect during
           2000 and 2001 . In both Massachusetts Medicaid SPA TN-99-12 and SPA TN-99- 13, which
           described the Commonwealth's reimbu rsement methodologies for acute inpatient and acute
           outpatient hospital services , respectively, Sections IV.CA (Inpatient, Attachment 1) and IV.B.
           (Outpatient, Attachment 2) should be considered in their entirety when evaluating whether
           supplemental payments were made in accordance with the State Plan. The full text of these
           sections describes additional conditions under which these supplemental payments were
           permitted.
                                                                                                      Page 2 of 6




Inclusion of medical education costs for fiscal years 2000 and 2001

The Draft Audit Report also recommended that EOHHS work with CMS to determine the
appropriateness of the portion of the supplemental payments representing payment amounts for
medical education costs, but made no specific monetary find ings . EOHHS is of course happy to
work with CMS on these issues , and believes that the inclusion of medical education costs for
fiscal years 2000 and 2001 in supplemental payment calculations was in accordance with the
State Plan in effect at the time. EOHHS looks forward to resolving any outstanding questions
CMS may have on this aspect of the calculation .

                                     •       •       •        •

In conclusion , we appreciate the OIG's collaboration and communication during this review. We
believe that our current practices comply with all federal requirements , and will work with CMS to
resolve the issues noted in your report as to our past practices . Please feel free to contact Kate
Moriarty, EOHHS Director of Compliance, at 617-348-5380 if you have any questions or
concerns.




Thomas Dehner
Medicaid Director




                                                                                                  2
                                                Page 3 of 6




Attachment 1: Inpatient State Plan (TN-99-12l
                                                                                                                  Page 4 of 6




                                                               Attachment 4.19A (1)
                         State Plan Under Title XIX of the Social Security Act 

                                        State: Massachusetts 

                                    Institutional Reimbursement 


               hy 3.10% to rellect inllation between RY95 and RY96, 2.38% to reflect inflation between RY96
               and RY97, 2.14% to reflect inflation between RY97 and RY98, 1.9% to rellect inflation
               between RY98 and RY99, and 1.43% to reflect inflation between RY99 and RYOO.

               There will aL,o be outlier payments for patients whose length of stay during a single
               hospitalization exceeds twenty acute days.

               Acute hospitals which receive payment as public service hospital providers shall be
               determined by the Division.

       4.   Non_ProAt Teaching Hospitals    A ffjliated with a Commoml\1eaHh~Owned..M.ed.icaLSchool


               a. 	    Subject to Section IV.C.4.b, the inpatient payment amount for non-psychiatric
                       admissions at non-profit acute care teaching hospi tals affiliated with a state-owned
                       university medical school shall be equal to the hospital's cost per discharge
                       calculated as follows:

                               The data used for this payment will be from the most recent submission of
                               the hospital's or predecessor hospitals' DHCFP-403 report(s). Total
                               hospital-specific inpatient non-psychiatric charges are multiplied by the
                               hospital's inpatient non-psychiatric cost-ta-charge ratio (calculated using
                               DHCFP-403, schedule II, column 10, line 100 minus column 10, line 82 for
                               the total cost numerator and schedule IT, column 11, line 100 minus column
                               11, line 82 for the total charges denominator) to compute that facility's total
                               inpatient non-psychiatric cost. The total inpatient non-psychiatric cost is
                               then multiplied by the ratio of the hospital-specific non-psychiatric
                               Medicaid discharges to the total hospital non-psychiatric discharges to
                               yield the Medicaid inpatient non-psychiatric cost. The Medicaid ")patient
                               non-psychiatric cost is then divided by the number of Medicaid nOI1­
                               psychiatriC discharges to calculate the Medicaid cost per discharge. This
                               Mec1icaid cost per discharge is multiplied by the inflation rates for those
                               years between the year of the cost report and the current rate year, as set
                               forth in Section IV.B.2.a.

               b. 	    Any payment amount in excess of amounts which would otherwise be due any
                       state-owned teaching hospital pursuant to Section IV.B is subject to speCific
                       legislative appropriation and intergovemrnental transfer.




TN 99-12                                                                     Approval Date_ __ - . "_   {l   fi 1001
Supersedes TN 98-12                                                          Effective Date 10/1/99
                                                   23



                                           OFFICIAL
                                                 Page 5 of 6




Attachment 2: Outpatient State Plan (TN-99-131
                                                                                                                     Page 6 of 6


  /	
       7
                                                                               AtUJchmen/ 4.19B(1)

                            State Plan Under Tille XIX of the Socinl Security Act 

                                           State: MassachuseUs 

                                      Non-lnstitutUmal !l.eimbursement 



           B. 	    Reimbursement Cor Unique Circumstances
                   Non-Profit Acute Teaching Hospitals Affiliated with a State-Owned University
                   Medical School

                   a. 	    Subject to section IV .C.2.b, the payment amount for outpatient, emergency
                           department. aod hospital-licensed health center services at non-profit acute care
                           teaching hospitals affiliated with a state-owned university medical school shall be
                           as follows. The data used for this payment will be from the most re<:ent
                           submission of the hospitals' or predecessor hospitals' DHCPP-403 report(s).

                           The hospital's tolal outpatieilt charges are multiplied by the hospital's overall
                           outpatient cost to charge ratio (the hospital's outpatient cost to charge ratio is
                           calculated using the DHCPP-403 total outpatient costs located on schedule II,
                           column 10, line 114 as the numerator and total outpatient charges located on
                           schedule II, column 11, line 114 as the denominator) in order to compute the total
                           outpatient costs. The total outpatient costs are then multiplied by the Medicaid
                           outpatient utilization factor (this factor is calculated by dividing the total Medicaid
                           outpatient charges by the total hospital outpatient charges) in order to calculate
                           Medicaid outpatient costs. Medicaid outpatient costs are then mUltiplied by the
                           inflation rates for those years between the year of the cost report and the current
                           rate year.

                   b. 	    Any payment amount in excess of amounts which would otherwise be due any
                           non-profit teaching hospital affiliated with a state-<lwned university medical school
                           pursuant to sections IVA and IV.B is subject to specific legislative appropriation
                           and intergovernmental funds transfer.


C. 	       Upper LImit Review and Fedeml Approval

           Payment adjustments may be made for reasons relating to the Upper Limit, if the number of
           hospitals that apply and qualify changes. if updated information necessitate, a change. or as
           otherwise required by the Health Care Financing Administration (HCFA). If any portion of the
           reimbursement methodology is not approved by HCFA. the Division may recover any payment
           made to a hospital in excess of the approved methodology.


0_ 	       Future Rate Years

           Adjustments may be made eacb rate year to update rates and shall be made in accordance with the
           hospital contract in effect on that date.


                                                       22

TN No. 99-/3                                                          Effective Date 1011199
Supersedes TN No. 99-09                                               ApprovalDate (j;/~!IJ)
